                        0


            U.S. SPACE COMMAND   YEAR 2000 ISSUES



Report Number 98- 188                         August 18, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.
  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:
                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

ITWIAA                Integrated Tactical Warning/Attack Assessment
NORAD                 North American Aerospace Defense Command
SPACECOM              U.S. Space Command
Y2K                   Year 2000
                              INSPECTOR GENERAL
                              DEPARTMENT    OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON, VffilNlA 22202




                                                                       August 18, 1998
MEMORANDUM FOR COMMANDER IN CHIEF, U.S. SPACE COMMAND
               DIRECTOR, JOINT STAFF
SUBJECT: Audit Report on U.S. Space Command Year 2000 Issues
         (Report No. 98-188)


       We are providing this audit report for your information and use.

        We considered management comments on a draft of this report in preparing the
final report. Management comments conformed to DoD Directive 7650.3; therefore,
no additional comments are required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard B. Vasquez at (703) 6049094 (DSN 664-9094)
 < email rbvasquez@dodig.osd.mil > , Ms. Dianna J. Pearson at (703) 6049063
(DSN 6649063) <email djpearson@dodig.osd.mil > , or Ms. Mary Lu Ugone at
(703) 6049049 (DSN 6649049) <email mlugone@dodig.osd.mil            > . See Appendix B
for the report distribution. The audit team members are listed inside the back cover.



                                        Robe<J. Lieberman
                                     Assistant Inspector General
                                            for Auditing
                       Office of the Inspector General, DoD

Report No. 98-188                                                       August 18,1998
  (projectNo.8AS-OO06.02)
                    U.S. Space Command Year 2000 Issues

                                Executive Summary

Introduction.    This is one in a series of reports being issued by the Inspector General,
DOD, in accordance with an informal partnership with the Chief Information Officer,
DoD, to monitor DoD efforts to address the year 2000 computing challenge. For a
listing of audit projects addressing the issue, see the year 2000 webpage on the IGnet at
< http://www.ignet.gov > .
Information technology systems have typically used two digits to represent the year,
such as “98” representing 1998, to conserve electronic storage and reduce operating
costs. With the two-digit format, however, the year 2000 is indistinguishable from
1900. As a result of that ambiguity, computers and associated systems and application
programs that use dates to calculate, compare, and sort could generate incorrect results
when working with years after 1999.
Audit Objectives. The overall audit objective was to evaluate the status of the U.S.
Space Command’s progress in resolving its year 2000 computing issue. Our audit
focused on the following year 2000 issues: leadership support and awareness,
management and resolution strategy, system assessments, prioritization, system
interfaces, testing, risk analysis and contingency planning, and support received from
responsible Service executive agents.
Audit Results. The U.S. Space Command and component commands have taken
actions to address the year 2000 problem, but not completed all the actions necessary to
minimize the adverse impact of Y2K date processing on its mission and its mission-
critical systems. Unless U.S. Space Command, along with the Joint Staff, the
Services, and the Defense agencies make further progress on mitigating Y2K risks,
U.S. Space Command may be unable to fully execute its mission without undue
disruption. See Part I for details of the audit results.

Summary of Recommendations.          We recommend that the Commander in Chief, U.S.
Space Command, develop a written year 2000 management plan that includes a strategy
for resolving the year 2000 problem; identify the year 2OfKlissue as a readiness issue
and include functional directorates in future warfighter year 2000 conferences hosted by
the Joint Staff; develop a complete list of mission-critical systems that includes U.S.
Space Command managed systems, U.S. Space Command supporting systems, and
systems based on commercial off-the-shelf and Government off-the-shelf products;
complete the identification of interfaces and prepare written interface agreements for
mission-critical systems that U.S. Space Command manages; develop contingency
plans for mission-critical systems that U.S. Space Command manages and develop
operational contingency plans for mission areas; develop comprehensive and complete
test plans to show how U.S. Space Command managed systems will be tested and
deemed compliant; coordinate year 2000 solutions and contingency plans with U.S.
Space Command component commands; and use selected command and joint exercises
for year 2000 operational evaluation in FYs 1998 and 1999. We recommend that the
Director, Joint Staff, include all functional directorates and component commands in
the warfighter year 2000 conference hosted by the Joint Staff.
Management Comments. The U.S. Space Command and the Joint Staff concurred
with the recommendations. See Part I for a summary of management comments and
Part III for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                           i

Part I - Audit Results
      Audit Background                                      2
      Audit Objectives
      Status of the U.S. Space Command Year 2000 Program

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                              16
        Methodology                                        17
        Summary of Prior Coverage
      Appendix B. Report Distribution                      :;:

Part III - Management Comments
      U.S. Space Command Comments                          22
      Joint Staff Comments                                 26
Part I - Audit Results
Audit Background
    The year 2000 (Y2K) problem is the term most often used to describe the
    potential failure of information technology systems to process or perform date-
    related functions before, on, or after the turn of the century. The Y2K problem
    is rooted in the way that automated information systems record and compute
    dates. For the past several decades, systems have typically used two digits to
    represent the year, such as “98” representing 1998, to conserve on electronic
    data storage and to reduce operating costs. With the two-digit format, however,
    the Y2K is indistinguishable from 1900. As a result of the ambiguity,
    computers and associated system and application programs that use dates to
    calculate, compare, or sort could generate incorrect results when working with
    years following 1999. Calculation of Y2K dates is further complicated because
    the Y2K is a leap year, the first century leap year since 1600. The computer
    systems and applications must also recognize February 29, 2000, as a valid
    date.
    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an Executive Order, “Year 2000
    Conversion,” February 4, 1998, making it policy that Federal agencies ensure
    that no critical Federal program experiences disruption because of the Y2K
    problem and that the head of each agency ensure that efforts to address the Y2K
    problem receive the highest priority attention in the agency. In addition, the
    General Accounting Office has designated resolution of the Y2K problem as a
    high-risk area, and DoD recognized the Y2K issue as a material management
    control weakness area in the FY 1997 Annual Statement of Assurance.

    DoD Y2K Management Strategy. In his role as the DOD Chief Information
    Officer, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan” (DOD Management Plan) in April 1997. The DOD Management Plan
    provides the overall DOD strategy and guidance for inventorying, prioritizing,
    fixing, or retiring systems, and monitoring progress. The DoD Management
    Plan states that the DOD Chief Information Officer has overall responsibility for
    overseeing the DOD solution to the Y2K problem. Also, the DoD Management
    Plan makes the DOD Components responsible for implementing the five-phase
    Y2K management process. The DOD Management Plan includes a description
    of the five-phase Y2K management process. The DOD Management Plan, For
    Signature Draft Version 2.0, June 1998, accelerates the target completion dates
    for the renovation, validation, and implementation phases. The new target
    completion date for implementation of mission-critical systems is
    December 31, 1998.

     In a January 20, 1998, memorandum for the heads of executive departments and
     agencies, the Office of Management and Budget established a new target date of
     March 1999 for imnlementine all corrective actions to all svstems. The new
     target completion dates are SEptember 1998 for the renovation phase and
     January 1999 for the validation phase.


                                        2
The Joint Chiefs of Staff. The Chairman of the Joint Chiefs of Staff is the
principal military advisor to the President, the Secretary of Defense, and the
National Security Council. The Joint Chiefs of Staff have no executive
authority to command the combatant forces. The Secretaries of the Military
Departments assign all forces under their jurisdiction to the unified commands
to perform missions assigned to those commands.
        The Joint Staff. The Joint Staff assists the Chairman of the Joint Chiefs
of Staff with unified strategic direction of the combatant forces, unified
operation of the combatant commands, and integration into an efficient team of
land, naval, and air forces. The Joint Staff Director, Command, Control,
Communications, and Computer Systems (J6), has been designated by the
Chairman of the Joint Chiefs of Staff to oversee the unified commands and Joint
Staffs implementation of the DOD Management Plan.
        Year 2ooO Action Plan. The Joint Staff Year 2000 Action Plan,
March 1998, provides the unified commands and Joint Staff directorates with
the corporate strategy and management approach for addressing the Y2K
problem. The action plan uses the accelerated target completion dates for the
renovation, validation, and implementation phases. The action plan states that
the unified commands should target December 31, 1998, for completion of all
Y2K efforts.
U.S. Space Command. The U.S. Space Command (SPACECOM) is one of
the nine unified commands of the Department of Defense. Although the
Department of Defense began its first space initiatives during the 1950s on the
basis of strengthening national security, SPACECOM was activated on
September 23, 1985, when the Joint Chiefs of Staff confirmed the ever-
increasing value of military space systems. The mission of SPACECOM is to
conduct joint space operations such as Space Forces Support, Space Force
Enhancement, Space Force Application, and Space Force Control. In addition,
SPACECOM is responsible for the ballistic missile defense of North America.
The SPACECOM also supports the other unified commands by providing
warning of ballistic missile attack and an assured access to and unimpeded
operation in space. The SPACECOM performs the missions primarily through
its three Service component commands, which are the Army Space Command,
the Naval Space Command, and the Air Force Space Command.

Among the most vital customers of SPACECOM is the North American
Aerospace Defense Command (NORAD). The NORAD is a bi-national U .S .
and Canadian command charged with safeguarding the sovereign airspace of
North America, contributing to deterrence, and providing effective air defense
should deterrence fail. The SPACECOM supports NORAD by providing
missile warning, space control, communication, and intelligence support to the
combined NORADBPACECOM Command Center in the Cheyenne Mountain
Operations Center. The center would sound the first alarm of an attack against
North America by air or through space.
Audit Objectives
     The overall audit objective was to evaluate the status of the progress of
     SPACECOM in resolving its Y2K computing issue. Our audit focused on the
     following Y2K issues: leadership support and awareness, management and
     resolution strategy, system assessments, prioritization, system interfaces,
     testing, risk analysis and contingency planning, and support received from
     responsible Service executive agents. We did not review the management
     control program related to the overall audit objective because DoD recognizes
     the Y2K issue as a material management control weakness area in the IT 1997
     Annual Statement of Assurance. See Appendix A for a discussion of the audit
     scope, methodology, and prior audit coverage.
Status of the U.S. Space Command
Year 2000 Program
The SPACECOM and component commands have recognized the
importance of the Y2K issue and have taken actions to address the Y2K
problem. However, SPACECOM has not completed all the actions
necessary to minimize the adverse impact of Y2K date processing on its
mission and its mission-critical systems. More needs to be done in the
following areas:
        l   developing a written SPACECOM Y2K management plan
that includes a strategy for resolving the Y2K problem and the role of
the Air Force Space Command in the SPACECOM program;
        l   establishing Y2K focal points within all the functional
directorates and requiring all functional directorates to participate in the
Y2K program, as part of the SPACECOM Y2K management plan;
       l   identifying Y2K as a readiness issue rather than only as an
information technology issue;
       l   identifying mission-critical systems, which include both
systems that SPACECOM manages and systems that Services or other
organizations manage;
        l   completing the identification of interfaces and preparing
written interface agreements for mission-critical systems that
SPACECOM manages;
      l   developing contingency plans for systems that SPACECOM
manages and developing operational contingency plans for mission areas;
       l   developing comprehensive and complete test plans to show
how SPACECOM-managed systems will be tested and deemed
compliant;
      l  coordinating Y2K solutions and contingency plans with
component commands to minimize impact on mission; and
        l  using selected command and joint exercises to test Y2K
scenarios and contingency plans in an operational environment when
possible.
 Unless SPACECOM, along with the Joint Staff, the Services, and the
 Defense agencies make further progress on mitigating Y2K risks,
 SPACECOM may be unable to fully execute its mission without undue
 disruption.
Status of the U.S. Space Command Year 2000 Program




Actions That SPACECOM and Its Component Commands
Took to Address the Year 2000 Problem
      The SPACECOM has recognized the importance of the Y2K issue and has taken
      actions to address the Y2K problem. For example, SPACECOM established a
      Y2K program manager; the Intelligence Directorate developed a Y2K program;
      and the Command, Control, Communications, and Computers Systems
      Directorate initiated limited Y2K compliance testing. The component
      commands also developed Y2K programs. The Air Force Space Command
      owns about 95 percent of the systems that SPACECOM uses.
      Specific Actions of SPACECOM. The SPACECOM Y2K program manager
      had been working on Y2K issues for more than 2 years. In addition, the
      Intelligence Directorate developed the NORAD-SPACECOM Intelligence
      System Y2K Transition Plan, August 29, 1997, which describes the NORAD-
      SPACECOM process for planning and managing the transition of the NORAD-
      SPACECOM Intelligence System into the year 2000. The plan will support the
      SPACECOM technical planning and management, budgetary programming, and
      technical coordination for all NORAD-SPACECOM intelligence systems.
      Further, the Command, Control, Communications, and Computers Systems
      Directorate performed limited Y2K compliance testing on new computer and
      software products before placing the products in use.
      Specific Actions of the Air Force Space Command. The Air Force Space
      Command developed the Air Force Space Y2K Program Management Plan,
      November 18, 1996, which outlines the approach that the Air Force Space
      Command is taking to resolve the Y2K problem. The Air Force Space
      Command plan is based on the plan established by the Air Force
      Communications Agency and follows the DOD Management Plan. In addition,
      the Air Force Space Command identified key personnel and program managers
      for the functional directorates, wings, and other units.

      The majority of the Air Force Space Command mission systems is in the
      Integrated Tactical Warning/Attack Assessment (ITW/AA) network. The
      systems either obtain data, such as radars or other sensors, or transmit data
      throughout NORAD/SPACECOM and are therefore considered mission-critical
      or mission-essential systems. The ITW/AA Y2K Working Group conducted an
      impact assessment in FY 19% for the ITW/AA and its data users. Based on
      results, the working group developed a strategy to ensure the survival of
      systems in the ITW/AA.
      Specific Actions of the Naval Space Command. The Naval Space Command
      established a Y2K team and coordination staff to develop a Y2K management
      plan and systems inventory. The inventory shows subject-matter-expert
      personnel for each system, a Y2K representative for each system, interfaces,
      and a listing of memorandums of agreement required for each interface.
      The Naval Space Command adopted a written Y2K Renovation Plan on
      March 11, 1998. The Naval Space Command recognizes that its projected

                                         6
                           Status of the U.S. Space Command Year 2000 Program



    completion date of April 30, 1999, exceeds the latest DOD Y2K compliance
    timeline date of December 3 1, 1998, for mission-critical systems and has
    identified the shortfall to Naval Space Command management.

    Specific Actions of the Army Space Forward Command. The Army Space
    Forward Command, a unit of the Army Space Command, is not the owner of
    the operational systems that it uses. However, the Army Space Forward
    Command is increasing its level of Y2K awareness and active interest in
    assessing the status of those systems. The Army Space Forward Command is
    now working with the Military Satellite program office and Defense Information
    Systems Agency to implement some required Y2K corrections.
    The Army Space Forward Command has established Y2K focal points and has
    tasked them to identify all systems possibly affected by the Y2K problem.
    While the Army Space Forward Command did not have a written Y2K
    management plan, database, or other mechanism for tracking Y2K compliance
    progress for its operational systems, the Army Space Forward Command was
    compiling a list of systems.


Further Actions Needed to Minimize Y2K Disruptions
    While we consider the actions taken to date by SPACECOM and the component
    commands as positive, SPACECOM has not yet fully addressed several critical
    issues. To ensure that its mission-critical systems will successfully operate at
    the year 2000 and beyond, SPACECOM, including its component commands
    and functional directorates, must further address the following critical issues.
    Management Plan. The SPACECOM has not published a command Y2K
    management plan that includes a strategy for resolving the Y2K problem.
    Although the Intelligence Directorate has a written Y2K Transition Plan that is
    specific to the intelligence systems, it does not provide an overall SPACECOM
    strategy. However, SPACECOM could use the intelligence Directorate Y2K
    Transition Plan as a basis for developing the SPACECOM management plan.
    At a minimum, the SPACECOM plan should include the following:

            l guidance for the DOD Management Plan and a requirement to update
     the SPACECOM plan based on changes to the DoD Management Plan,

            l   a SPACECOM strategy for resolving Y2K problems,
            l   the role of the Air Force Space Command in the SPACECOM Y2K
     program,
            l   Y2K focal points for all functional directorates, and
            l  a requirement for participation of functional directorates in the Y2K
     program and identification of mission-critical systems.


                                         7
Status of the U.S. Space Command Year 2000 Program



            Role of the Air Force Space Command in the SPACECOM Y2K
      Program. The SPACECOM officials stated that SPACECOM had delegated a
      significant portion of Y2K Program Management Authority to the Air Force
      Space Command because 95 percent of the systems that they use are owned by
      the Air Force Space Command. However, SPACECOM provided no written
      documentation of the delegation. Further, we could not verify the accuracy of
      the percentage of Air Force Space Command systems that SPACECOM uses
      because SPACECOM had not prepared a Command list of mission-critical
      systems.
              Y2K Focal Points. The SPACECOM had not established and
      documented focal points within all functional directorates. Establishing focal
      points should promote awareness and involvement in developing and executing
      the SPACECOM Y2K program strategy. Also, focal points should query their
      directorates for mission-critical systems used and assist the SPACECOM Y2K
      Program Manager in preparing the Command list of mission-critical systems
      and in identifying system interfaces.
               Functional Directorate Participation. Because SPACECOM had not
      established and documented Y2K focal points within all functional directorates,
      we found evidence that not all the directorates were fully involved in the Y2K
      program. The functional directorates need to assist in identifying mission-
      critical systems and system interfaces used if SPACECOM expects to identify a
      Command list of mission-critical systems.
      Y2K as a Readiness Issue. The Y2K issue is more than an information
      technology problem and could affect operations and force readiness. Unless
      SPACECOM, as well as other unified commands, expands the perspective that
      the Y2K issue only impacts computers, other functional directorates and
      component commands may not view Y2K as a serious warfighter issue. The
      view of Y2K as only an information technology problem is evidenced by the
      lack of other functional directorates participating in the August 1998 warfighter
      Y2K conference hosted by the Joint Staff. The SPACECOM sent only a J-6
      representative.
      Lii  of Mission-Critical Systems. The SPACECOM had not developed a
      complete list of mission-critical systems, including both systems that
      SPACECOM manages and systems that Services or other organizations manage.
      Therefore, we could not be sure that SPACECOM had identified all systems
      used. As of March 1998, SPACECOM had identified six mission-critical
      systems. The six systems represent the Intelligence Directorate, which is only
      one of the SPACECOM functional directorates. Also, the six systems are all
      SPACECOM-managed systems. The SPACECOM, including the functional
      directorates, need to develop a complete list of mission-critical systems. The
      mission-critical systems list should show SPACECOM-managed systems,
      SPACECOM supporting systems, and systems that are based on commercial
      off-the-shelf and Government off-the-shelf products. The SPACECOM, with
      the help of its component commands and the functional directorates, needs to
      identify mission-critical supporting systems because the appropriate executive
      agents need to be aware of the systems that are critical to the SPACECOM
      mission.
                                            8
                       Status of the U.S. Space Command Year 2000 Program



The Office of the Assistant Secretary of Defense (Command, Control,
Communications and Intelligence) has developed a DOD Y2K database.
However, the decision to make the DOD Y2K database on-line is being
discussed. The Joint Staff has made available an extract of the DoD Y2K
database on the SIPRNET.
Interfaces and Written Interface Agreements.        Because SPACECOM had not
identified a complete list of mission-critical systems, SPACECOM did not finish
identifying system interfaces or preparing written interface agreements for
mission-critical systems that SPACECOM manages. Although SPACECOM
had identified interfaces for the intelligence systems, it had not developed
written interface agreements specifying the method of data exchanges, the entity
responsible for Y2K solutions, and completion dates for the solutions. As a
result, SPACECOM is unable to determine the status of those interfaces that
may impact the SPACECOM mission. Interfaces are critical to the Y2K effort
because they have the potential to introduce or propagate errors, or both, from
one DoD Component to another.
In addition to known interfaces, SPACECOM exchanges data with systems of
allied and coalition partners, as well as other Federal agencies. Those systems
are also vulnerable to Y2K problems, which could introduce or propagate errors
into SPACECOM systems. Timely and complete information on all system
interfaces that may be affected by Y2K changes is critical to the success of the
Y2K compliance program of SPACECOM.
The DOD Management Plan states that components need to determine the
dependency links between internal and external systems; determine the
dependency links between core mission areas, processes, and all data exchange
entities; and provide for date and data format conversions where necessary. A
validation process is necessary to ensure compliance. The sample Y2K
compliance checklist in the DOD Management Plan states that DoD Components
and each interface partner should negotiate an agreement dealing with Y2K
issues. The DOD Components and their interface partners should discuss and
verify that they have implemented consistent Y2K corrections for data passed
between the systems. The SPACECOM needs to prepare written interface
agreements for mission-critical systems that SPACECOM manages to reduce the
risk of discovering too late in the Y2K effort that an interfacing system will not
be able to accommodate Y2K changes. The interface agreements should
provide for the same types of information as in the DoD Management Plan
sample Y2K compliance checklist.
Contingency Planning. The SPACECOM had not developed contingency
plans for the six SPACECOM-managed intelligence systems. According to the
DOD Management Plan, DOD Components should develop realistic contingency
plans, including the development and activation of manual or contract
procedures, to ensure the continuity of core processes. When SPACECOM
completes the identification of systems, SPACECOM will also have to
determine the need for contingency plans based on the complete list of systems.

 In addition to the managed systems’ contingency plans, SPACECOM should
 review and assess contingency plans for mission-critical systems that other
                                    9
Status of the U.S. Space Command Year 2000 Program



      organizations own, as they become available, and develop operational
      contingency plans as needed for those mission areas. The Joint Chiefs of Staff
      Year 2000 Action Plan states that unified commands are not expected to know
      detailed information about the mission-critical systems provided by the Services
      and Defense agencies. However, the unified commands must conduct sufficient
      planning and establish alternate procedures to successfully complete an
      organization’s mission while the system’s program managers and technical staff
      make necessary Y2K corrections. The Joint Chiefs of Staff Year 2000 Action
      Plan provides guidance on developing both operational and system contingency
      plans.
      Testing Plans. The SPACECOM had not developed comprehensive and
      complete test plans to show how SPACECOM-managed systems will be tested
      and deemed Y2K compliant. The DOD Management Plan states that DoD
      Components need an extensive period of time to adequately validate and test
      converted or replaced systems for Y2K compliance. DoD Components not only
      must test for Y2K compliance of individual applications, but also must test the
      complex interactions between sources of converted or replaced computer
      platforms, operating systems, utilities, applications, databases, and interfaces.
      All converted or replaced system components introduced during the renovation
      phase must be thoroughly validated and tested to uncover errors, validate Y2K
      compliance, and verify operational readiness. Inspector General, DOD, Report
      No. 98-129, “U.S. Special Operations Command Year 2000 Issues,” May 8,
      1998, recommended that the Joint Staff assist the unified commands in testing
      systems and applications that are common to the unified commands.

      The Joint Interoperability Test Command provides general assistance in Y2K
      resolution that includes test planning, test case development, and solution
      recommendations. In addition, the Joint Interoperability Test Command can
      provide specific assistance in support of a system to include analysis of
      hardware platforms and software application packages, development and
      execution of a Y2K test plan, recommendations to resolve Y2K impacts, and
      implementation of resolution recommendations.

      Component Commands. The SPACECOM had limited visibility over its
      component commands’ Y2K problems and solutions, except for interfaces,
      because the SPACECOM component commands report systems through Military
      Departments. As a result, SPACECOM did not know how the Y2K issues will
      impact the overall mission of SPACECOM. Because the SPACECOM mission
      will involve the component commands, the resolution strategy and
      implementation of that strategy is a responsibility of SPACECOM and its
      component commands. Therefore, SPACECOM should coordinate Y2K
      solutions and contingency plans with the SPACECOM component commands.
      In August 1998, the Secretary of Defense issued a memorandum that requires
      each of the Unified Commanders-in-Chief to review the status of Y2K
      implementation within his command and the command of subordinate
      components. The Unified Commanders-in-Chief are required to report the
      status of Y2K implementation to the Secretary of Defense on a quarterly basis.



                                          10
                            Status of the U.S. Space Command Year 2000 Program




Use of Selected Command and Joint Exercises for Y2K
Operational Evaluation
    Because of time constraints posed by Y2K issues, using selected command and
    joint exercises to test Y2K scenarios may assist SPACECOM in making further
    progress to identify and resolve Y2K problems. Further, use of selected
    exercises, the development of Space mission readiness assessment, or both,
    would provide SPACECOM and the unified commands with the opportunity to
    correct Y2K interoperability issues because of system interdependencies and
     interfaces or would provide alternative measures in the event that resolution of
     Y2K issues is not timely. Inspector General, DoD, Report No. 98-173, “U.S.
     Central Command Year 2000 Issues,” July 2, 1998, and Inspector General,
     DOD, Report No. 98-129, “U.S. Special Operations Command Year 2000
     Issues, n May 8, 1998, recommended that the Joint Staff integrate year 2000
     scenarios into operational requirements in joint exercises for the purposes of
     determining the extent of potential year 2000 impact on continuity of warfighter
     operations.

    The House bill to authorize appropriations for FY 1999 for the Department of
    Defense, H.R. 3616, proposes that the Secretary of Defense submit to Congress
    a report containing a plan to include a simulated Y2K as part of military
    exercises conducted from January 1, 1999 to September 30, 1999. The plan
    shall include military exercises conducted under the Chairman of the Joint
    Chiefs of Staff Exercise Program. Additionally, the plan is to cover systems
    excluded from the exercise and provide an explanation of how the military
    exercise will use an excluded system’s Y2K contingency plan.

     The Secretary of Defense has asked the Chairman of the Joint Chiefs of Staff to
     develop a Joint Y2K operational evaluation program and to provide the plans by
     October 1, 1998. In June 1998, the Vice Chairman, Joint Chiefs of Staff, sent
     a message to the unified commands, Services, and Defense agencies. The
     message provided a synopsis of the operational evaluation plan, solicited unified
     command involvement in the Y2K process, and requested feedback on Y2K
     operational evaluation opportunities. The Y2K operational evaluation plan will
     encourage use of joint exercises, demonstrations, mission readiness assessments,
     tests, or other opportunities for evaluation of Y2K readiness. The goal of Y2K
     operational evaluations is to assure the warfighters that their key mission-critical
     systems will not fail due to Y2K perturbations, as isolated systems or as part of
     the interconnected systems environment in which warfighting and peacekeeping
     missions are conducted.
     Performing command and joint exercises to test Y2K interoperability of system
     interdependencies and interfaces may not be possible in some instances if the
     Services and agencies have not made and implemented the necessary Y2K
     corrections to the required systems. In such cases, testing contingency plans in
     an operational environment would be necessary. Testing contingency plans will
     help SPACECOM assess its capability to continue operations if the systems fail
     because of Y2K problems.


                                          11
Status of the U.S. Space Command Year 2000 Program




Conclusion
      Although SPACECOM has made initial progress in resolving the Y2K problem,
      it must continue to address several critical issues to prevent critical system or
      program disruptions because of the Y2K problem. The SPACECOM must take
      a more aggressive ap roach with the Y2K issue to minimize disruption of
      operations because o P Y2K problems. Unless SPACECOM, along with the
      Joint Staff, the Services, and the Defense agencies make further progress on
      mitigating Y2K risks, SPACECOM may be unable to fully execute its mission
      without undue disruption. Copies of this report are being provided to all unified
      commands to facilitate self reviews of Y2K efforts.

      Inspector General, DoD, Report No. 98-129, “U.S. Special Operations
      Command Year 2000 Issues,” May 8, 1998, and Inspector General, DOD,
      Report No. 98-173, “U.S. Central Command Year 2ooO Issues,” July 2, 1998,
      made recommendations to the Joint Staff that are also applicable to the U.S.
      Space Command.


Recommendations          and Management Comments
      1. We recommend that the Commander in Chief, U.S. Space Command:

             a. Develop a written U.S. Space Command year 2000 management
      plan that includes:

                   (1) implementing guidance for the DoD Year 2000
      Management Plan and a requirement to update the U.S. Space Command
      plan based on changes to the DoD Year 2000 Management Plan,

                     (2) a U.S. Space Command strategy for resolving year 2000
      problems,

                  (3) the role of the Air Force Space Command in the
      management of the U.S. Space Command year 2000 program, and

                     (4) establishing year 2000 focal points within ail the
      functional directorates and involving all functional directorates in the U.S.
      Space Command year 2000 program.

              b. Identify the year 2000 issue as a readiness issue and include
      functional directorate representatives in future warfighter year 2000
      conferences hosted by the Joint Staff.

              c. Develop a complete list of mission-critical systems that includes
      U.S. Space Command managed systems, U.S. Space Command supporting
      systems, and systems based on commercial off-the-shelf and Government
      off-the-shelf products.


                                          12
                      Status of the U.S. Space Command Year 2000 Program



        d. Complete the identification of interfaces and prepare written
interface agreements for mission-critical systems that U.S. Space Command
manages.

       e. Develop contingency plans for mission-critical systems that U.S.
Space Command manages and develop operational contingency plans for
mission areas.

       f. Develop comprehensive and complete test plans to show how U.S.
Space Command managed systems will be tested and deemed year 2000
compliant.

      g. Coordinate year 2000 solutions and contingency plans with U.S.
Space Command component commands.

        h. Use selected command and joint exercises to test year 2000
scenarios and contingency plans in an operational environment when
possible.

Management Comments.       The U.S. Space Command concurred with all of the
recommendations, stating progress made and future intentions for each
recommendation.
2. We recommend that the Director, Joint Staff, include all functional
directorates and component commands in the warfighter year 2000
conference hosted by the Joint Staff.

Management Comments.       The Joint Staff concurred with the recommendation
and attempted to ensure broad representation at the August 1998 conference.




                                  13
Part II - Additional Information
Appendix A. Audit Process

    This is one in a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer,
    DOD, to monitor DOD efforts to address the Y2K computing challenge. For a
    listing of audit projects addressing the issue, see the Y2K web page on the IGnet
    at c http://www.ignet.gov > .



Scope
    We reviewed and evaluated the status of the progress of SPACECOM in
    resolving the Y2K computing issue. We evaluated the Y2K efforts of
    SPACECOM, compared with those efforts described in the DOD Management
    Plan issued by the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) in April 1997. We obtained documentation
    including the Intelligence System Y2K Transition Plan, August 29, 1997; the
    Naval Space Command Y2K Program Management Plan, March 11, 1998; and
    the Air Force Space Y2K Program Management Plan, November 18, 1996. We
    also visited the Army Space Forward Command. We used the information to
    assess efforts related to the multiple phases of managing the Y2K problem.

    DOD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Department of Defense has established 6 DOD-wide corporate-level performance
    objectives and 14 goals for meeting the objectives. This report pertains to
    achievement of the following objective and goal.

        l   Objective:  Prepare now for an uncertain future. Goal: Pursue a
            focused modernization effort that maintains U.S. qualitative superiority
            in key war fighting capabilities. (DoD-3)

    DoD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

        l   Information Technology Management Functional Area.
            Objective: Become a mission partner. Goal: Serve mission
            information users as customers. (ITM-1.2)

        l   Information Technology Management Functional Area.
            Objective: Provide services that satisfy customer information needs.
            Goal: Modernize and integrate DOD information infrastructure.
            (ITM-2.2)



                                        16
                                                       Appendix A. Audit Process



        l   Information Technology Management Functional Area.
            Objective: Provide services that satisfy customer information needs.
            Goal: Upgrade technology base. (ITM-2.3)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DOD. This report provides coverage
    of the Information Management and Technology high-risk area.



Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit at SPACECOM from February through April 1998 in
    accordance with auditing standards issued by the Comptroller General of the
    United States, as implemented by the Inspector General, DOD. We did not use
    computer-processed data for this audit.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.
    Management Control Program.         We did not review the management control
     program related to the overall audit objective because DoD recognized the Y2K
     issue as a material management control weakness area in the FY 1997 Annual
     Statement of Assurance.


Summary of Prior Coverage
     The General Accounting Office and the Inspector General, DOD, have
     conducted multiple reviews related to Y2K issues. General Accounting Office
     reports can be accessed over the Internet at < http://www.gao.gov > . Inspector
     General, DOD, reports can be accessed over the Internet at
     C http://www.dodig.osd.mil   > . The following Y2K reports have been issued
     on other unified commands.
     Inspector General, DOD, Report No. 98-173, “U.S. Central Command Year
     2000 Issues,” July 2, 1998.
     Inspector General, DOD, Report No. 98-129, “U.S. Special Operations
     Command Year 2000 Issues,” May 8, 1998.




                                        17
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Year 2000 Oversight and Contingency Planning Office
Assistant Secretary of Defense (Public Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force




                                         18
                                                    Appendix B. Report Distribution




Unified Commands
Commander     in Chief,   J.S. European Command
Commander     in Chief,   J.S. Pacific Command
Commander     in Chief,   J.S. Atlantic Command
Commander     in Chief,   J.S. Southern Command
Commander     in Chief,   J.S. Central Command
Commander     in Chief,   J.S. Space Command
Commander     in Chief,   1.S. Special Operations Command
Commander     in Chief,   J. S. Transportation Command
Commander     in Chief,   J. S. Strategic Command


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
   United Kingdom Liaison Officer, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory Affairs
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:
   Senate   Special Committee on the Year 2000 Technology Problem
   Senate   Committee on Appropriations
   Senate   Subcommittee on Defense, Committee on Appropriations
   Senate   Committee on Armed Services
   Senate   Committee on Governmental Affairs
   House    Committee on Appropriations
   House    Subcommittee on National Security, Committee on Appropriations
   House    Committee on Governmental Reform and Oversight


                                            19
Appendix B. Report Distribution




Non-Defense Federal Organizations and Individuals (cont’d)
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security

Chief, Review Services, Canadian Department of National Defence




                                        20
Part III - Management Comments
U.S. Space Command Comments



                           UNlTEO STATES SPACE COMMAND




    MEMORANDUM FOR DIRECTOR, ACQlJlSll-ION MANAGEMENT, OFFICE OF THE
                  INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

    FROM: DEPCINCSPACE
          250 South Peterson Blvd, Ste 116
          Peterson AFB. CO 80914

    SUBJECT: Dmft Au&t Report on US Space Commsnd Year 2000 Issues (Project No.
             8AS-0006.02)

    1. I have carefully reviewed your draft report. The attached comments coincide wlth
       each of your recommendations for conective action.

    2. USSPACE Command recognizes the impoMnce of the Year 2000 issue as a matter
       of readiness. Our Y2K progmm is active and hiily pnxfuctlve. To date, over 90%
       of our mission systems are meeting the mkstcnes of the DOD Five-Phased Plan.
       The few mission systems not mMlng current ml&tones are on a schedule to catch
       up by 31 December 1998. Missionsystems not meetii the 31 Deoember 1998
       deadlfne have well substantiated justlfiitiin and am scheduled to be compliant by
       mid-1999. Thii Information is documentedand maintained in the Air Force
       Automated Systems Inventory (AFASI).

    3. Our robustY2K program continues to progress. Your difigent and thorough efforts
       am helpful and much appreciated. We’re acting on each and every recommendation
       to enhance our program. I’m very confiit our mission capablllty will sulvive the
       millenium rollover.

    4. Please direct questions to my POC, Maj Dan Mullen, N-SPJ60, OSN 6924125.




                                     /      Vice Admiral, U. S. Navy
                                            Deputy Commander in Chief




    Attachment:
    Status of the US Space Command Year 2000 Program




                                             22
                                              U.S. Suace Command Comments




The foliowingcomments colndde directlywtth each DoDlG mwmmwdatlon for
corrective action.

1. We (DoDIG] recommend that the Commander in Chief, US. Spats
 Command:”

    a. CONCUR. The Draft NORADUSSPACECOM Year 2000 Action Plan Is
     complete and currenttyunder coordination. Expected comptetbn date
     (ECD) Q 31 JulQ8.

        (1) CONCUR. The NORADUSSPACECOM Year 2OOClActiin Plan
         implements DOD guidance and b requiredto be updated concurmntty
         with the DoD Year 2000 Management Plan.

        (2) CONCUR. The NORAD-USSPACECOM Year 20              Action Plan
         contatns8tmtegy
                       for resolvingyear 2000 problems.

        (3) CONCUR. The NGRAD-USSPACECOM Year 2OW Acttcn Plan
         articulatesthe rota@and msponstbltltlesof HQ NORAD
         USSPACECOM and all Space Senke Components [Air Force Space
         Command (AFSPC), Naval Space Command (NAVSPACECOM),
         Army Space Command (ARSPACE) and Cheyenne Mountain
         Opemttons Center (CMW)] and Regions [Canada NORAD Region
         (CANR), Alaska NORAD Region (ANR), and ConttwW NORAD
         Region (CONR)].

           NorE:Robaand           .    unbrttmNoRAPussPAcElwM
           unTbmn8md~W
            USSPACECW, AFSPC, FJAVSPACECOM, ARSPACE, CMX,
            CAhm, ANR, lld CcwR.




        (4) CONCUR. The NORAD-USSPACECOM Year 2t300 Action Plan
         establishes and tnvolves year 2OOfIfocal points in all functional



                                       1




                                      23
U.S. Space Command Comments




                 directoratesas well as all Spece Servke Components and Regions.

             b. CONCUR. CINCNORADYSSCINCSPACE 122100 JUN 98, YEAR
              2090 (Y2K) CHALLENGE, emphaskes Year 2000 as en operatlonat Issus
              that crosses all functfonal boundarfssand a rscommsndsd hi@ priority
              track on the scope of all Spaos Ssrvics Component and Region
              commanders. These points ars also covered in ths NORAD-
              USSPACECOM Year 2000 Action Plan (reference paragraph 1a above for
              ECD).

             c. CONCUR. NOAA D-USSPACECCM has a list of all mfssioncritics1
              systems that also ktentffies correspondtngexeouttve agents (l-49NORAD-
               USSPACECOM, AFSPC, NAVSPACECOM, and ARSPACE). Space
               Sswfce Components maintain ffstsfor mfssfcnsufqort systsms and
               infrastructureand this tnfonnalfonis avsifabfsto USSPACECOM upon
               request. Stilt fn progress is the tdsntiffcatbnof aft mission support
               systems snd fnfrasWctun in HG NORAD-USSPACECOM, CMOC,
               CANR, CONR. and ANR that an nd covwsd by mspectivs Force
               Provider Year 2090 Programs. ECD b 31 Aug 98.

             d. CONCUR. interfaces havs besn tdsntffisdfor misslon cdtkal systems
              for which HQ NORAD-USSPACECOM sews as executive agent.
              Interface control documents (ICD) exist for these systems and are
              acceptable as wrtttsn interface agrsement8 per JCS guidance. The Space
              Service Components am executive agents for 254 miss&oncritiil
              systems. Most of thsss systems hsvs interfaces fdsntffiedand Interface
              doasnentatkst devefopsd. USSPACECOM is currsnttyvedfyfng sn
              accurate count. ECD 10 Jul98.

             e. CONCUR. Development of systemscontingsncyptans and operational
              contingencyplan8 are tmcieway. Systemscmtiicy          plans extstfor
              that 90% of Space Servtce Compcnent mission critkal systems thst
               completed ths bOV&kWl       Phase, 30 Jun 98. Remainhg system8 will
               have contingencyplans completed in August, September, and November
               1998. Systems contingency plans for HO NORAD-USSPACECOM
               systems are in progress. ECD Is 31 Jul98. Operational amtingsncy
               plans for all systems ars in pmgrsss. ECD is 31 Dee 98.

             f. CONCUR. Test ptans for HG NORADUSSPACECOM mission crttksl
               systems am in progress. ECD h 31 Jul98. lest pfans for Space Sswtcs
               Component missfon systems are virtustfycomplete. AFSPC is conducting
               an inventoryot test ptans. ECD is 31 Jul98.

             g. CONCUR. USSPACECOM is coordinatingYear 2000 solutionsand
              contfngsncyplans with Space Sewics Components. For example,



                                              2




                                            24
                                            U.S. Space Command Comments




                  ftheuss
                            m              Year ggQQProorqm


     wmpmhansive and compfete te8t plans developed for the 44 mission
     systems in the integrated Tactical Warning and Attack As8essmsnt
     (ITWAA) missIon area have expsffsnced great tu~cusssand were
     forwarded up-channel for considerationa8 a Do0 template.

    h. CONCUR. VCJCS 0820562 Jun 98, Year 2QQQChallenge message
     provides8 synopsisof ths Joint Staff Year 2QQQ(Y2K) Operational
     Evaluation Plan, 8olicitscombatant command invofvsment in the Y2K
     process, and requests feedback on Y2K operational evaiuatfan
     oppoftunlties. Ths USCINCSPACE exercise progmm consists pdmafffyof
     providingsupportduring 0th~ CINC exe&es. Thii provkfes
     USSPACECOM with the must realistictrainingenvirwwnant possible.
     Spade systems shoufd be includsd in Y2K apemtbnaf evaluation8 and
     USSPACECOM 8tand8 ready to 8uppoftthi8 endewur. Suggssted
     candidate exercises are: CJCS commsnd post examise (CPX) PDSlTfVE
     FORCE (PF) gg; USClNCPAClCFC computeras&ted exerdse (CAX)
     ULCHI FOCUS LENS (UR) 98, and USClNCSTRAT/ClNCf4ORAD/
      USCINCSPACE execerdse    GLOBAL GUARDIAN OQ.

2. VCJCS 0820562 Jun 98, Year 2QOQChallenge massage, pamgraph 5, invftes
 ClNCs to send functional rspmsentatiws in additionto Y2K coordinators.




                                    3




                                  25
Joint Staff Comments


                                          Tile JOINT 8TAFF
                                            -or         DC




                                                                         DJSM 802-98
                                                                         24 July 1908


         MEMORANDUM FOR’IHE INSPECNIR GENERAL DEPARlMEIVl.OF DEFENSE

         SubJect: Audit Report on US Space Command Year 2000 Iwuw (FYoJectNo. SAS-
                  ocm.021


         1. -Ihe Joint Staff endow your ~eattons to Improve the Year 2000 m    of the
         US Space Command (USSPACECOM).1 We are ful)y committedto eneurlng the
         war&hung mtsetonaof the combatant wmmnnds wtll be conducted without Yea,r
         2000-related m&&on degradation.

         2. Your draft audit report Included fbxilngs for both the Jolnt Staff and
         USSPACECOM. ‘Ike Jolnt Staffs management commentson the draft audit are
         deecrlbed tn EnclosureA USSPACEZOKs managementcommentnare ehown at                             *
         Encloeure B.

         3. The Joint Staff point of contact for Year 2000 audit actions Is Lieutenant Colonel Ludnda
         Hacknan. J6V. (703) 697-1207. DSN 227-1207.1udnda.hackman0~s.pentagon.mL




                                                       DEIikS C:BIAIR
                                                       Vice MmlraJ, U.S. Navy
                                                       DIrector.Joint Staff




         1 IGDOD memorandum. 10 June 1998. ‘Audit Report on U.S.
           Spncc comman d Year 2000 Issues ProJect No. SAS-OOOS.02)’




hc
JM owe                                                       submltted comments separately.
                                                  26
                                                          Joint Staff Comments




                             ENCLOSURE A

  JOINT STAFF COMMENB ON AUDIT REPORT’ ON US SPACE COMMAND
            YEAR 2000 ISSUES (PROJECT NO. &IS-oooS.02)


RECOMNEF4DATIOIU 2: That the Director. Joint Staff, include all functional
directorates and component commands in the warfighter year 2WO conference
hosted by the Joint Staff.

JOINT STAFF COMMENT: Concur. AU functional directorates and
component commands will be invited to the Joint Staff3 August 1998 and
subsequent year 2000 conferences.




                                                                Enclosure    A




                                    27
Audit Team Members

This report was prepared by the Acquisition Management   Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
Dianna J. Pearson
LTC James McCune
Richard B. Vasquez
Cristina Maria H. Giusti
